        LIMITED AUDIT OF
    FEDERAL SUPPLY SERVICE’S
    CONTRACTING FOR SERVICES
     UNDER MULTIPLE AWARD
      SCHEDULE CONTRACTS
REPORT NUMBER A000897/F/3/V01002
         JANUARY 9, 2001
Date:      January 9, 2001

Reply to
Attn of:   Regional Inspector General for Auditing (JA-3)

Subject:   Limited Audit of Federal Supply Service’s
           Contracting for Services Under Multiple Award Schedule Contracts
           Report Number A000897/F/3/V01002

To:        Donna D. Bennett, Commissioner
           Federal Supply Service (F)


This report presents the results of the limited audit of Federal Supply Service’s
(FSS) Contracting for Services under Multiple Award Schedule (MAS) Contracts.
This review was included in the Office of the Inspector General’s Fiscal Year 2000
Annual Audit Plan.

The main focus of the limited audit was to determine whether FSS had awarded
MAS service contracts in accordance with Federal Acquisition Regulations.
Based on contract file reviews, customer agency task order reviews, interviews of
contracting officers and customer agency personnel, and interviews of various
state contracting officials, we found that FSS’ services contracts are extremely
popular with Federal agencies, especially the Department of Defense; contracting
officers are establishing fair and reasonable prices and FSS is taking steps to
improve internal controls over the negotiation, award and administration of
services contracts. Therefore, we believe no additional audit work is necessary or
any recommendations are required.


Background

The General Services Administration (GSA) was established in 1949 to give the
Federal Government a more efficient and economical system for procuring and
supplying personal property and non-personal services. Begun at GSA in the
1950s, the MAS program has provided federal agencies with a simplified method
of acquiring small, repetitive quantities of common-use, commercial items,
ranging from paper and furniture to mainframe computers and complex
laboratory equipment. When compared to traditional procurement methods, the
MAS program provides several advantages to both federal agencies and vendors.
Agencies can order small quantities of commonly used goods and services

                                          2
without using the cumbersome and administratively costly traditional
procurement process. By having GSA negotiate MAS contracts, agencies, as well
as contractors, also avoid the cost of duplicating procurements for common use
items. Contractors also benefit because their commercial products are exposed
to a large number of potential federal customers. Information Technology
Services (Schedule 70) were the first professional services contracts executed
under the MAS program in 1996. Other services such as Environmental and
Professional Engineering, were subsequently contracted for under the MAS
program.

The audit survey evaluated selected contracts within seven service categories
under the MAS program. The total estimated value of all the service contracts
within the seven service categories is $11.3 billion. The breakdown of this
amount by service category is as follows: Information Technology Services
$7,936,170,964;    MOBIS       $2,029,326,330;       Environmental   Services
$1,085,670,000; Professional Engineering Services $160,150,000; Financial
Asset Services $78,350,004; Financial Related Audits $48,100,000; and
Mechanical, Chemical, Electrical, Geological Testing $22,087,208.


Objectives, Scope, and Methodology

The main focus of the audit survey was: “Do service contracts belong under the
FSS MAS Program and are they awarded consistent with recent procurement
reform legislation?”

To accomplish the survey objective, we obtained a database from the Acquisitions
Operations and Electronic Commerce Center (FCSP) listing all active MAS
services contracts. We selected a total of 24 service contracts covering the seven
service categories as indicated below.

v 3 Information Technology                   v 1 Mechanical, Chemical,
  Services (IT) Contracts                      Electrical and Geological Testing
v 2 Professional Engineering                   Contract
  Services (PES) Contracts                   v 5 Environmental Services
v 2 Financial Asset Services                   Contracts
  Contracts                                  v 10 Management, Organization,
v 1 Financial Related Audit                    Business Improvement Services
  Contract                                     (MOBIS) Contracts

The twenty-four contracts were selected based on an estimated minimum
contract value of $5 million except for the IT contracts which we used a $10
million minimum threshold. As of December 31, 1999, the total estimated
contract value for the twenty-four contracts was over $2.1 billion or 19 percent of
the total estimated contract value of $11.3 billion for all active service contracts.

                                         3
The contracts were reviewed to determine the basis of award, and the criteria
used for determining fair and reasonable pricing.       We interviewed GSA
contracting personnel regarding specific questions related to the twenty-four
contracts in our review.

Also, from the four service schedules with the greatest sales volume (Information
Technology, Professional Engineering Services, Environmental Services and
MOBIS) we identified the contractors with the largest GSA sales volume. Then,
we sent letters to these contractors requesting a listing of their total GSA sales by
government agency, as well as a comprehensive listing of the individual task
orders for their top 10 Government customers. This information was provided in
an Excel spreadsheet format and covered the period commencing at contract
inception (varied) and ending December 31, 1999. From the task order
spreadsheet, we judgmentally selected 10 task orders for review. The task orders
were reviewed to determine if contracting officers were competing the orders and
renegotiating the GSA ceiling labor rates at the task order level.

The last phase of the audit survey fieldwork included interviewing (telephonically
or in person) other state contracting agencies to determine how they contract for
services. We contacted state contracting personnel from the following states:
Pennsylvania, Washington, Utah, California, Arizona, Nevada, Idaho,
Massachusetts, Maryland, Virginia and Colorado.

Our office decided to proceed with the audit with the following revised audit
objectives:

      Ø Are Multiple Award Schedule (MAS) service contracts awarded and the
        prices negotiated in accordance with FAR and GSAM requirements? If
        not, is the effect significant? What can be done to correct the
        problem?
      Ø Can FSS benefit from practices used by State Governments and
        commercial entities to procure services?

Furthermore, we narrowed our focus to the top four service contract schedules
that have a combined estimated contract value of $11.2 billion. We selected 30
contracts from these four schedules for review (eleven of which were originally
examined under the survey phase). The 30 contracts valued at $3.4 billion
accounted for 30 percent of the total estimated schedule contract value under
these schedules.




                                         4
       SERVICE           NO. OF         $ VALUE OF
      CONTRACT         CONTRACTS        CONTRACTS          TOTAL $ VALUE
      SCHEDULE         REVIEWED         REVIEWED           OF SCHEDULE

         IT                  8          $1,957,190,555       $7,936,170,964
       MOBIS                10             945,510,000        2,029,326,330
   ENVIRONMENTAL             7             438,000,000        1,085,670,000
        PES                 5               65,000,000          160,150,000
       TOTAL                30          $3,405,700,555      $11,211,317,294


As previously stated, the contracts were reviewed to determine the basis of
award, and the criteria used for determining fair and reasonable pricing. For
each of the contracts, we requested from the contractors a listing of the top 10
GSA schedule task orders for the period April 1, 1999 to March 31, 2000. We
compiled the task order information we received from the contractors into a
spreadsheet. Our database consisted of 206 task orders with a total dollar value
of $254,755,822. For purposes of the audit, we focused on the two agencies that
accounted for the largest portion of total dollar value: Department of Defense
(DOD) and General Services Administration (GSA). As the chart below illustrates,
DOD and GSA accounted for $208,822,277 or 82 percent of the total task order
dollar value and they processed 149 of the 206 task orders.


        OTHER AGENCIES:
                                  18%
           $45,933,545

             DOT
             HUD                                          DOD & GSA
             VA
             HHS                                          Other Agencies
             DOA
             DOEN
             DOC
             DOI
             NASA
                                                  82%                   TOTAL:
             AOUSC                                                    $208,822,277
             FDIC
             DOED
             FCC
             DOJ
             NIH
             CORE                                 DOD: $170,807,376
             DOS                                  GSA: $38,014,901
             EPA
             USAID




We selected for review 14 task orders, (9 DOD and 5 GSA) representing the top
dollar value task orders for each agency. The 14 task orders totaled $86,238,247
and accounted for 41 percent of the total dollar value of $208,822,277 for DOD
and GSA. Like the 10 task orders reviewed during the survey, these task orders
were reviewed to determine if contracting officers were competing the orders and

                                        5
renegotiating the GSA ceiling labor rates at the task order level. Also, we
interviewed FSS contracting officers as well as user agency contracting officers or
contracting officer representatives.

The survey and audit was performed from December 1999 through September
2000.   This audit was conducted in accordance with generally accepted
Government auditing standards.


Results of Audit

The GSA Federal Supply Service (FSS) Multiple Award Schedule (MAS) services
contracts program is extremely popular with Federal agencies. The benefits
realized by user agencies include a streamlined procurement process, which
results in faster delivery of needed services. GSA accomplishes most of the
required procurement procedures during the negotiation and award of services
contracts, eliminating these requirements for user agencies. Additionally, GSA
establishes the pricing under its services contracts is fair and reasonable,
eliminating the requirement for agencies to obtain multiple quotes. Our review
showed GSA FSS is taking steps to improve the internal controls over the
negotiation, award and administration of services contracts. Some of these
changes include additional training for their procurement personnel, and FSS
obtaining customer feedback through Dun and Bradstreet to evaluate how
satisfied agencies are with MAS services vendors. Further, FSS is supporting
Federal Acquisition Regulation changes which will require agencies using the
services schedules to attempt to obtain better-than-negotiated pricing on large
procurements. In our opinion, these changes will strengthen the program and
result in better pricing for user agencies.

As part of our audit, we reviewed task orders issued by Federal agencies under
GSA FSS services contracts. Interviews with agencies’ contracting officers, and
other agency representatives showed agencies are very satisfied with FSS MAS
services contracts as a procurement vehicle. This was especially true with
Department of Defense (DOD) customers. The primary advantage to using FSS
MAS services contracts cited by DOD customers was faster procurements.
When using GSA, Federal agencies are not required to advertise in the
Commerce Business Daily, follow the Fair Opportunity to Compete, develop a
procurement plan, or follow their agencies’ oftentimes cumbersome approval
process. Agencies that have a services requirement and use a GSA MAS
schedule as a procurement vehicle develop a performance oriented statement of
work, send it to one or more GSA MAS schedule vendors, review the proposals
from the vendors, select the vendor that offers them the best value, and then
issue the purchase order. GSA has already established that the prices under
the MAS contract are fair and reasonable, therefore agencies are not required
to negotiate rates with the vendor.

                                        6
Our review of how GSA FSS awards and administers MAS services contracts
showed GSA FSS contracting officers established fair and reasonable pricing
prior to award of each MAS services contract.         Price reasonableness is
established by one or more methods, including:           i) comparisons with
commercial rates; ii) comparisons with other Government contracts; iii)
analysis of proposed rates by an outside agency (i.e. Defense Contract Audit
Agency); iv) comparison with rates for other contracts under the same
schedule; v) comparisons with rates offered by the vendor under previous MAS
contracts; and vi) market analysis.

Representatives of GSA FSS indicated the negotiated rates on the MAS
schedule are “ceiling rates.” They explained this means the agencies using the
GSA schedule will never pay more than the negotiated rate on the schedule
contract, but could possibly pay less. In interviews with GSA contracting
officers, we were told agency schedule users further negotiate the GSA rates
with each task order issued. As part of our review, we examined fourteen task
orders, nine of which were awarded by the DOD, and five awarded by GSA.
Each of these task orders was over the schedule contract maximum order (MO)
of $500,000. As part of the review, we examined the agency’s contract file and
interviewed the contracting personnel responsible for negotiating and awarding
these task orders. Of the fourteen task orders reviewed, three reflected pricing
lower than the rates negotiated by GSA. For the eleven that reflected the GSA
pricing, at least one agency did not know they could request lower rates from
the vendor, despite the fact this information is on the GSA FSS web site and
outlined in the ordering procedures in the vendor’s GSA catalog. In our
opinion, prospective changes to the Federal Acquisition Regulations (FAR)
requiring agencies with task orders exceeding the MO to request lower rates
could result in savings to the Government.

Our review found GSA FSS is taking steps to improve the internal controls over
the negotiation, award and administration of services contracts.        FSS is
conducting training for its contracting personnel, including services contracts.
FSS is also working with Dun and Bradstreet to develop a feedback system to
evaluate the agencies’ level of satisfaction with FSS MAS services contracts.
Currently, FSS informally gauges the level of satisfaction by the procurement
dollars spent on individual contracts. Additional program improvements will
occur with the implementation of prospective FAR changes. These changes will
include the requirement for agencies using the MAS services schedules to
attempt to obtain better-than-negotiated pricing on large procurements,
specifically those over the contract MO. Currently, once the agency selects the
vendor that provides the best value, guidelines encourage but do not require the
agency to request better pricing than the GSA schedule pricing. In our opinion,
requiring the agencies to request better-than-GSA pricing, especially on large
procurements, could result in savings to the government.



                                       7
We wish to thank members of your staff for the courtesies extended to the
audit staff during this review. Should you or your staff have any questions
concerning this review, please contact me at (215) 656-6170.



William D. Anthony
 Audit Manager (JA-3)
Mid-Atlantic Regional Field Audit Office




                                       8
                     LIMITED AUDIT OF FEDERAL SUPPLY SERVICE’S
                          CONTRACTING FOR SERVICES UNDER
                       MULTIPLE AWARD SCHEDULE CONTRACTS
                          REPORT NUMBER A000897/F/3/V01002


                               REPORT DISTRIBUTION
                                                                 Copies

Commissioner, Federal Supply Service (F)                            3

Assistant Inspector General for Auditing (JA)                       2

Director, Audit Planning Staff (JAN)                                1

Audit Follow-up & Evaluation Branch (BECA)                          1

Assistant Inspector General for Investigations (JI)                 1

Office of Chief Financial Officer (B)                               2

Administration & Data Systems Staff (JAS)                           1




                                                 A-1
